Supreme Court, U.S.
FILED

JUL 0 2 2021
OFFICE OF THE CLERK

No.P' i - n
tfje Supreme Court of tfje Untte& States!
Elizabeth Harding Weinstein,
Petitioner,
v.
Village of Briarcliff Manor,

et al.,

Respondents.
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Second Circuit
BRIEF TO PETITION
FOR EXTRAORDINARY WRIT OF CERTIORARI

Elizabeth Harding Weinstein,
Pro Se
Currently Homeless as per the
Courts, Permanent Address:
180 River Road Briarcliff
Manor New York 10510

Please direct all
correspondence to
lizharding l@mac.com
(646) 261-7685

July 2, 2021

RECEIVED
JUL - 7 2021
SesicolfR^x
U.S,

Brian Stryker
Weinstein, Pro Se
180 River Road
Briarcliff Manor, NY 10510
brian.weinstein@davisnolk.com.
brianstrvkerweinstein@gmail.co
m
(646) 261-7685

David Chen
Office of the Westchester
County Attorney
148 Martine Avenue Suite 600
White Plains NY 10601
dhca@westchestergov.co
m
(914) 995-3616

Lewis Silverman
Silverman & Associates
445 Hamilton Avenue Suite
#1102
White Plains NY 10601
lsilverman@silvermanandassoci
atesnv.com
(914) 574-4510

(Counsel for Respondents)

QUESTIONS PRESENTED
In January 2021, after publicly advocating
against
covid
restrictions,
pedophilia
and
government tyranny, Elizabeth Harding Weinstein,
Petitioner, was denied the services of her local
government, imprisoned in solitary confinement
because Petitioner could not medically tolerate a
mask, and remanded there for seven weeks by
Defendant Judge Howard T Code.
After release, Petitioner filed a Federal 1983
claim Pro Se. Defendant Judge Code retaliated,
instantly had Petitioner falsely imprisoned again,
absent of criminal charges, and involuntarily
committed by judicial order, in clear violation of
Mental Health Hygiene laws, where she, a woman on
no medications her whole life, was gruesomely forced
a dangerous litany of medications, by judicial order
of related judge Anne E Minihan.
Once released, Petitioner was issued an ex
parte, ex post facto “order” by related judge Nancy
Quinn-Koba, then immediately falsely arrested for
alleged violations of the unserved “order” by
Defendant Officers, and given new orders by related
Judge Stuart A. Halper.
Since advocating, Petitioner, who was a stay
at home mom for seventeen years, has been denied,
by judicial orders: any direct access to her children;
access to her home; access to all her finances; access
to her belongings, all while being denied due process
and access to the court in any case Petitioner is a
litigant, including federal courts.
Defendants, with the assistance of related
Judge Janet C Malone, are now advancing an Article
81 proceeding over Petitioner to take full control over
their legal adversary, all while Petitioner’s
competency is self-evident.
As a Pro Se litigant, Petitioner has additionally
been deprived of equal access to the lower courts.
The questions presented are:
1.
May a citizen be deprived of government
services, or access to a government building, for not
wearing a mask, even if the citizen can not medically
tolerate a mask?

May the government imprison a citizen under
2.
the guise of “disorderly conduct” or “obstruction of
government interference” for not wearing a mask,
even if a citizen can not medically tolerate a mask?
May the government deprive a citizen of
3.
access to the Court or due process for not wearing a
mask, even if the citizen can not medically tolerate a
mask?
May prison officials punish an inmate for not
4.
wearing a mask, even if an inmate can not medically
tolerate a mask?
May agents of the government violate the
5.
Nuremberg Code and coerce prisoners into medical
experimentation?
Must scrutiny be applied to judicial or
6.
prosecutorial actions to weed out malice, corruption
or those who flout clearly established law prior to the
application of “judicial immunity”?
7.
If scrutiny must not be applied to judicial or
prosecutorial actions prior to the application of
“judicial immunity,” how does a litigant seek relief
from judicial tyranny?
May the Courts have separate processes for
8.
Pro Se litigants which present obstacles to justice
and deny due process?
9. Given that most abuse comes from birth families
and family members by marriage, are the U.S.
Courts condoning abuse and trafficking by having
separate, less transparent Family Court processes?
10. Do legal Guardianships violate the Thirteenth
Amendment?

11

LIST OF PARTIES
VILLAGE of BRIARCLIFF MANOR;
BRIARCLIFF POLICE DEPARTMENT;
JUSTICE HOWARD T. CODE, Personally & in his Official Capacity as Justice of the Briarcliff
Village Court;
BRIAN STRYKER WEINSTEIN;
RORIM. ZIRMAN, Personally & in her Official Capacity as Court Clerk;
PHILIP E. ZEGARELLI, Personally and in his Official Capacity as as a Police Officer;
CHIEF DOMINICK BUETI, Personally & in his Official Capacity as a Police Officer;
SGT. THOMAS NACKE, Personally & in his Official Capacity as a Police Officer;
DET. SGT. FREDRICK GALBRAITH, Personally & in his Official Capacity as a Police
Officer;
DONALD GOREY, Personally & in his Official Capacity as Former Chief Of Police;
PO GREGORY CAMPUS, Personally & in his Official Capacity as a Police Officer;
SGT. WILLIAM BASSETT, Personally & in his Official Capacity as a Police Officer;
MARIA PASCETTA, Personally & in her Official Capacity as Secretary to Village Manager;
MAYOR STEVEN A. VESCIO, Personally and in his Official Capacity as Mayor of the Village
of Briarcliff Manor;
EDWARD E. MIDGLEY, Personally and in his Official Capacity as member of Board of
Trustees;

m

PETER E. CHATZKY, Personally and in his Official Capacity as member of Board of Trustees;
KEVIN HUNT Personally and in his Official Capacity as member of Board of Trustees;
SABINE WERNER Personally and in his Official Capacity as member of Board of Trustees;
JOHN DOE 1-10;
MARIE VITALE, Personally and her Official Capacity as a Court Appointed Attorney;
DANIEL POZIN, Personally and his Official Capacity as Attorney for Briarcliff Manor,
DAVID LAUSCHER, Personally and in his Official Capacity as Assistant District Attorney;
JOYCE MILLER, Personally and in her Official Capacity as Assistant District Attorney;
FRED GREEN, Personally and in his Official Capacity as Assistant District Attorney

IV

RELATED CASES
1.

Elizabeth Harding Weinstein v. Village
of Briarcliff Manor, et al, Nos. 21-1099 and 211127, U.S. Court of Appeals for the Second
Circuit, pending, Petitioner currently denied
access to the court and electronic filing

2.

Elizabeth Harding Weinstein v. Village
of Briarcliff Manor, et al, No. 7-21-CV-01996US District Court for the Southern District of
New York, pending, Petitioner currently
denied access to the court

3.

i

Elizabeth Harding Weinstein v.
Cooper et al, No. 1-21-CV-04543-UA, United
States District Court, Southern District of
New York, pending, Petitioner currently
denied access to the court

4.
The People of the State of New York v.
Elizabeth Harding Weinstein, Nos. 21-010006,
20-070051, 20-100024, Dismissed March 9,
2021, Dismissal Contested by E. Harding
Weinstein, currently denied access to court
The People of the State of New York v.
5.
Elizabeth Harding Weinstein, No. 21-040023
Village Court of Briarcliff Manor, pending,
Petitioner currently denied access to the Court
Elizabeth Harding Weinstein v. Arlene
6.
E Katz, Writ of Mandamus, No. 2021-00436,
Supreme Court State of New York, Appellate
Division,
Second
Judicial
Department,
pending

V

7.

Elizabeth Harding Weinstein v.
Brian Stryker Weinstein No. 55866/2020
Supreme Court in the State of New York,
County of Westchester, Pending, Petitioner
currently denied access to the Court

8.

Elizabeth Harding Weinstien v.
Brian Stryker Weinstein, No. 2021-00402,
Supreme Court State of New York, Appellate
Division, Second Judicial Department, denied
all access to court and all relief, February 17,
2021

9.

Elizabeth Harding Weinstien v.
Brian Stryker Weinstein, No. 2021-03800, (also
classified 2021-03956) Supreme Court State of
New York, Appellate Division, Second Judicial
Department, denied access to court issued
multiple conflicting Orders, both denying all
relief, June 3 and June 7, 2021

Brian Stryker Weinstein v. Elizabeth
10.
Harding Weinstein No. 31053/2021 Supreme
Court in the State of New York, County of
Westchester, Pending; Article 81 Proceeding
by my Domestic Violence Abuser, not properly
served
Brian Stryker Weinstien v. Elizabeth
11.
Harding Weinstein No. 57121/2021, Supreme
Court in the State of New York, County of
Westchester, pending; duplicative divorce
filing by Defendant Weinstein 1 year after
Petitioner filed for divorce (see #7), never been
served by Defendant Weinstein,
who
references this case in other filings.
12.
52851/2021 American Express National
Bank v. Elizabeth Weinstein: Petitioner has
never ever been served this case but
Defendant Weinstein references this case in
other filings.

VI

TABLE OF CONTENTS

QUESTIONS PRESENTED..................

1

LIST OF PARTIES, RELATED CASES

11

TABLE OF AUTHORITIES...................

IX

OPINIONS BELOW............................................................

x

JURISDICTION..................................................................

XI

CONSTITUTIONAL AND STATUTORY PROVISISION

Xll

STATEMENT......................................................................

1

REASONS FOR GRANTING THE WRIT...................... .
I. Sup. Ct. R. 11..........................................................
II. Judicial Tyranny &
Mask Restrictions at War with Constitution.....
III. Desecration of All Individual’s Rights..............
IV. Urgency Warranting this Court’s Immediate Attention....
V. Case Law and Legal Sophistry Replacing Constitutional Law
VI. Pedophilia Hidden by Judiciary
V. CONCLUSION...........................

32,
31

Vll

INDEX TO APPENDICES
APPENDIX 1 (Al)
Decisions and Orders from the U.S. District Court, Southern District of New
York, No. 7-21-CV-01996-CS filed March 8, 2021; Docket; January 4, 2021
Video of Arrest for No Mask

APPENDIX 2 (A2)
Deletion of Evidence of Pedophilia by Second Circuit Court of Appeals and by
Judicial Council of the Second Circuit Case 21-1099, 21-1197; Revocation of
access to Second Circuit following public posting of deletion of evidence

APPENDIX 3 (A3)
Brian Stryker Weinstein’s acknowledgment of pedophilia and agreement to
stay away from children; Video confronting Brian May 21, 2020

APPENDIX 4 (A4)
Documentation from Elizabeth Harding Weinstein’s Primary Care MD and
Domestic Violence Counselor documenting no psychiatric concerns or ideations
regarding Elizabeth and history of Domestic Violence and narcissistic abuse
from Brian Stryker Weinstein

Vlll

APPENDIX 5 (A5)
Defendant Brian Stryker Weinstein Attempted False Kidnapping and
Imprisonment of Petitioner Elizabeth Harding Weinstein, Contracts, Emails,
Payment, Opening New Bank Accounts, May 2020

APPENDIX 6 (A6)
Brian Stryker Weinstein June 1, 2020 Family Offense Petition and May 31,
2020 Eastchester Police Report documenting Fraud and Use of Police to
Harass

APPENDIX 7 (A7)
June 1, 2020 Katz Conference, Willful Fraud; NYS Family Court, Westchester
161237/2020

APPENDIX 8 (A8)
June 5, 2020 Katz Conference, Willful Fraud, Child Trafficking; NYS Family
Court, Westchester 161237/2020

APPENDIX 9 (A9)
June 5, 2020 Text from Child MSHW to Brian Stryker Weinstein (BSW)
asking for BSW not to involve the Police on the Children and Affirming they
were safe with Petitioner

IX

APPENDIX 10 (A10)
June 5, 2020 Trafficking of Children by Police A: Video Police Affirming
Children Safe with Petitioner and Defendant Received new TOP on his phone
from Judge; B: Eviction and Kidnapping by Police C: Acknowledgement to
Children

APPENDIX 11 (All)
June 5, 2020 Katz Eviction Order of Petitioner while Documenting Katz
knowledge Brian Stryker Weinstein had Willfully Established Separate
Residence; Willful Misrepresentation of Fact with “Both Parties Present”

APPENDIX 12 (A12)
55866/2020 NYS Supreme Court Divorce Pro Se Filing & Docket; Elizabeth
Harding Weinstein v. Brian Stryker Weinstein

APPENDIX 13 (A13)
Instant Recusal Orders from all Judges in our Jurisdiction, Case 161237/2020
NYS Family Court, Westchester

APPENDIX 14 (A14)
Video of False Retaliatory Arrest of Petitioner at Defendant Weinstein’s
request; A. July 17, 2020 video affirming no violation at that location B: July
30, 2020 video arresting for violation in same location, arbitrarily and
capriciously

X

APPENDIX 15 (A15)
Arbitrary and Capricious Orders by Howard T Code, purposely vague; Code
Court Denial of Access to Court

APPENDIX 16 (A16)
Defendant Village of Briarcliff Manor Police Department Harassment,
Intimidation, Stonewalling, Stalking and Stake Outs

APPENDIX 17 (A17)
“2020 July 34” File Tampering, Refusing Access to File, No. 161237/2020 NYS
Family Court, Westchester

APPENDIX 18 (A18)
July 22, 2020 Katz Conference, Child Trafficking, Witness Tampering, Denial
of Due Process, No. 161237/2020 NYS Family Court, Westchester

APPENDIX 19 (A19)
Police Report Documenting Gloria Marchetti Bruck (GMB), “Attorney for
Children”, Criminal Coercion of Children; GMB Willful Fraud

APPENDIX 20 (A20)
1767/2020 Pro Se Filing, Writ of Mandamus, NYS Supreme, Westchester;
Document and File Tampering

XI

APPENDIX 21 (A21)
55866/2020 October 2, 2020 Koba Conference; Harassment, Intimidation,
Coercion, using mask and children as weapons

APPENDIX 22 (A22)
55866/2020 Koba advanced willful delay of standard and customary August
Consolidation Motion until December

APPENDIX 23 (A23)
20100024 People v. Elizabeth Harding Weinstein, January 4, 2021 Code Letter
and FOIA Request, Denied Filing by Court and Arrested instead for “No Mask”

APPENDIX 24 (A24)
Defendant Court Clerk Rori Zirman call to Defendant Police, to “not deal” with
accepting filings from Elizabeth Harding Weinstein

APPENDIX 25 (A25)
Defendant Village Manager Phil Zegarelli Stonewalling

APPENDIX 26 (A26)
January 4, 2021 Two Police Body Cam Videos of False Arrest for “No Mask”

Xll

APPENDIX 27 (A27)
January 4, 2021 Arrest Documents, Falsified Arraignment Sheet; Affidavit of
Police refusing to take Exculpatory evidence

APPENDIX 28 (A28)
January 4-8, 2021 Harassment, False Charges, and Denial of Grievances by
Westchester County Correctional Facility, Valhalla, NY

APPENDIX 29 (A29)
Defendant Code Court denial of transcripts

APPENDIX 30 (A30)
January 5-8, 2021 Dissipation of Over $230,000 of Marital and Elizabeth
Harding Weinstein’s Personal Assets by Mark Davidson, Citi Private Bank
COO, and Brian Stryker Weinstein

APPENDIX 31 (A31)
2021-00402 NYS Second Judicial Department Appellate Court February 16,
2021Fraud; to wit Clerk Wendy Stynes Denial of Receipt of Electronic
Documents previously confirmed

xm

APPENDIX 32 (A32)
2021-00402 NYS Second Judicial Department Appellate Court February 17,
2021 Fraud; to wit Video and Transcript of “Conference” denying Court Access
and Due Process

APPENDIX 33 (A33)
NYS Second Judicial Department Appellate Court Fraud; to wit a. 2021-00402
February 17, 2021 Robert J. Miller Denial of Petition with no findings of fact or
conclusions of law; denial of en banc review b. 2021-03800 June 7, 2021 Fraud
“Order” by Clerk c. 2021-03956 (wrong case number on correct document) June
3, 2021 Fraud Order with no hearing, access to court, or findings of fact and
conclusions of law

APPENDIX 34 (A34)
7-21-01996-CS US District Courts, New York Southern District, March 8, 2021
Pro Se Filing and Requests for Emergency Access to Court and Injunctive
Relief; Video of January 4, 2021 Unlawful Arrest

APPENDIX 35 (A35)
Videos of March 9, 2021 Kidnappings by Defendants in Retaliation for Federal
1983 Case; Elizabeth Harding Weinstein affirmation of Competency and No
Threat to Herself or Others

XIV

APPENDIX 36 (A36)
March 9, 2021 to April 2, 2021 Notes from St Vincents False Imprisonment;
Falsification of Notes by Efobe; Gruesome Medication over Objection by Judge
Anne E. Minihan

APPENDIX 37 (A3 7)
April 16, 2021 Koba Ex Post Facto Ex Parte TOP, backdated to December 4,
2021, when no Koba TOP existed March 5, 2021 to April 16, 2021

APPENDIX 38 (A38)
April 16, 2021 Police Harassment, False Arrest of Elizabeth Harding
Weinstein for “alleged violations” of ex post facto ex parte TOP April 5-15,
2021, absent of warrant or exigent circumstances; Arresting Sheets; Halper
TOP

APPENDIX 39 (A39)
1-21-CV-04543-LTS Elizabeth Harding Weinstein v. Cooper et al filing; Denial
of Access to Court by Chief Judge Laura Taylor Swain

APPENDIX 40 (A40)
31053-2021 Brian Stryker Weinstein v. Elizabeth Harding Weinstein; Article
81 Proceeding with Defendant Dina Kaplan as representative and Defendant
Officers
as
“expert
witnesses”
Police

XV

XVI

TABLE OF AUTHORITIES

I am not a lawyer, and I pray this court understands that one not have
to be a lawyer, or be slave to one, to exercise, or have access, to one’s
inalienable rights and freedoms. I pray this Court reviews this petition in a
light most favorable to a Pro Se litigant, as all legal and ethical obligations
dictate.
My intent is not to argue the merits of case law to sway the scholarly
judiciary, as that process has been corrupted by pecuniary tied interests and
groupthink. This case is of imperative public import, the evidence of which
speaks for itself.
My intent is to advocate for my rights under the constitution, provide
this Court and We The People clear and convincing undeniable evidence of
“legal” enforcement of unconstitutional orders, and consistent widespread
willful deprivation of citizens’ rights by the judiciary, from the family court all
the way up to federal appellate courts. The facts will demonstrate that We
The People have two options for recourse: this extraordinary writ and the
cooperation of the Supreme Court with reestablishing integrity in our
courtrooms, as a worldwide model for justice; or devaluing and demolishing
this system of corruption and building a new system of actual justice.
I am not a lawyer, but I am an Indisputable Good and Protective
Mother, and I am building a better world for my children. I have evidence the
breech of the integrity of the judiciary is the root cause of our existing
worldwide crisis and desecration of our humanity. I would like to think the
Supreme Court of the United States would partner with me and other citizens
in reestablishing value and integrity in our existing judicial system, but if this
Court does not, I will have evidence that I exhausted all legal remedies, as I
show We The People how We are not free under our current judicial system.

XVII

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Thinly veiled “covid regulations” and “mask mandates” are used to deny
Petitioner access to the court and deny due process. Petitioner is currently
being denied her children, her home, her finances, her belongings, her dog, and
her mail, all by judicial order, all without due process, all with no relief in
sight. All courts are deleting or ignoring evidence of defendant’s pedophilia,
and punishing Petitioner for bringing a case. Defendants in Petitioner’s
federal cases received judicial consent to advance a nefarious Article 81
proceeding against Petitioner, to gain medical, financial, social, and legal
dominion over Petitioner. All of the above establishes dangerous
unconstitutional precedence, and clear judicial tyranny, in our lower courts.
Petitioner respectfully prays that a writ of certiorari, interlocutory, be issued
to review the judgement below and the case, as writ of certiorari is the only
method for justice to be served.
OPINIONS
The opinions of the United States District Court in the Southern District of
New York appears at Appendix 1.
The United States Court of Appeals, Second Circuit maliciously revoked
Petitioner’s electronic filing rights, and denied Petitioner access on June 3,
2021 after Petitioner exposed filing impropriety and spoliation of evidence by
the United States Second Circuit Court of Appeals on June 2, 2021. This
appears at Appendix 2.

xvn:
JURISDICTION
As Plaintiff is firmly being deprived of Plaintiff s right to access to the
lower court, jurisdiction lies firmly with the Supreme Court of the
United States 28 U.S.C. §1254(1).

XIX

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

CONSTITUTION
The Fourth Amendment to the United States Constitution provides,
in relevant part:
The First Amendment to the United States Constitution provides, in
relevant part:
“Congress shall make no law respecting an establishment of religion, or
prohibiting the free exercise thereof; or abridging the freedom of speech,
or of the press, or the right of the people to peaceably to assemble, and to
petition the Government for a redress of grievances.”
The Second Amendment to the United States Constitution provides,
in relevant part:
“the right of the people to keep and bear Arms shall not be infringed.”
The Fourth Amendment to the United States Constitution provides,
in relevant part:
“The right of the people to be secure in their persons, houses, papers,
and effects, against unreasonable searches and seizures, shall not be
violated, and no Warrants shall issue, but upon probable cause,
supported by Oath or affirmation, and particularly describing the place
to be serach, and the persons or things to be seized.

XX

The Fifth Amendment to the United States Constitution provides, in
relevant part:
“No person shall be...deprived of life, liberty, or property, without due
process of law’ nor shall private property be taken for public use, without
just compensation.”
The Sixth Amendment to the United States Constitution provides, in
relevant part:
“In all criminal prosecutions, the accused shall enjoy the right to a
speedy and public trial, by an impartial jury of the State and district
wherein the crime shall have been committed... and to be informed of the
nature and cause of the accusation; to be confronted with the witnesses
against him, to have compulsory process for obtaining witnesses in his
favor, and to have the Assistance of Counsel for his defense.”
The Eighth Amendment to the United States Constitution provides, in
relevant part:
“Excessive bail shall not be required, nor excessive fines imposed, nor
cruel and unusual punishment inflicted.”
The Tenth Amendment to the United States Constitution provides, in
relevant part:
“The powers not delegated to the United States by the Constitution....are
reserved...to the people.”

XXI

The Thirteenth Amendment to the United States Constitution § 1,
provides, in relevant part:
“Neither slavery nor involuntary servitude, except as a punishment for
crime whereof the party shall have been duly convicted, shall exist in the
United States, or any place subject to their jurisdiction.”
The Fourteenth Amendment to the United States Constitution, § 1,
provides, in relevant part:
“No state shall make or enforce any law which shall abridge the
privileges or immunities of citizens of the United States; nor shall any
state deprive any person of life, liberty, or property, without due process
of law; nor deny to any person within its jurisdiction the equal protection
of the laws.”
Title 18 U.S.C. § 1331 provides, in relevant part:
“The district courts shall have original jurisdiction of all civil actions
arising under the Constitution, laws, or treaties of the United States.”
Title 18 U.S.C. § 1343(3)(4) provides, in relevant part:
“The district courts shall have original jurisdiction of any civil action
authorized by law to be commenced by any person:
(3) To redress the deprivation, under color of any State law, statue,
ordinance, regulation, custom or usage, of any right, privilege, or
immunity secured by the Constitution of the United States or by any Act
of Congress providing for equal rights of citizens or of all persons within
the jurisdiction of the United States;”

XXII

(4) To recover damages or to the secure equitable or other relief under
any Act of Congress providing for the protection of civil rights, including
the right to vote.”
Title 42 U.S.C. § 1983 provides, in relevant part:
“Every person who, under color of any statute, ordinance, regulation,
custom, or usage, of any State...subjects, or causes to be subjected, any
citizen of the United States...to the deprivation of any rights, privileges,
or immunities secured by the Constitution and laws, shall be liable to
the party injured in an action at law...”
Title 42 U.S.C. §12203(a)(b)
“(a) Retaliation No person shall discriminate against any individual
because such individual has opposed any act or practice made unlawful
by this chapter or because such individual made a charge, testified,
assisted, or participated in any manner in an investigation, proceeding,
or hearing under this chapter.
(b)Interference, Coercion, or Intimidation It shall be unlawful to coerce,
intimidate, threaten, or interfere with any individual in the exercise or
enjoyment of, or on account of, his or her having exercised or enjoyed, or
on account of his or her having aided or encouraged any other individual
in the exercise of enjoyment of, any right granted or protected by this
chapter.”
Title 18 U.S.C. § 241 provides, in relevant part:
“If two or more persons conspire to injure, oppress, threaten, or
intimidate any person in any State, Territory, Commonwealth,
Possession, or District in the free exercise or enjoyment of any right or
privilege secured to him by the Constitution or laws of the United States,
or because of his having so exercised the same.... They shall be fined
under this title or imprisoned not more than ten years, or both...”

xxn:

Title 18 U.S.C. § 242 provides, in relevant part:
“Whoever, under color of any law, statute, ordinance, regulation, or
custom, willfully subjects any person in any State...to the deprivation of
any rights, privileges, or immunities secured or protected by the
Constitution or laws of the United States, or to different punishments,
pains, or penalties, on account of such person being an alien, or by
reason of his color, or race shall be fined under this title or imprisoned
not more than one year, or both; and if bodily injury results from the acts
committed in violation of this section... shall be fined under this title or
imprisoned not more than ten years, or both...”
Title 18 U.S.C. § 1513 provides, in relevant part:
“(e) Whoever knowingly, with the intent to retaliate, takes any action
harmful to any person, including interference with the lawful
employment or livelihood of any person, for providing to a law
enforcement officer any truthful information relating to the commission
or possible commission of any Federal offense, shall be fined under this
title or imprisoned not more than 10 years, or both.
(f) Whoever conspires to commit any offense under this section shall be
subject to the same penalties as those prescribed for the offense the
commission of which was the object of the conspiracy.”
Title 28 U.S. Code § 1651(a) provides:
“The Supreme Court and all courts established by Act of Congress may
issue all writs necessary or appropriate in aid of their respective
jurisdictions and agreeable to the usages and principles of law.”

/

STATEMENT
I. BRIEF HISTORY This case focuses on the
unlawful arrest and solitary confined imprisonment
of Petitioner for the “crime” of not being able to
medically tolerate a mask, and the subsequent
retaliatory action taken by judges and defendants
after Petitioner filed Federal 1983 case 7-21-CV01996-CS in the NYSD. However, a brief synopsis of
events leading up to January 4, 2021 is necessary to
grasp the full breadth of the lawlessness that has
occurred.
A. DEFENDANT WEINSTEIN LAWYER,
DOMESTIC VIOLENCE AND PEDOPHILIA
Elizabeth Harding Weinstein, Petitioner, is a law
abiding stay-at-home Mother of three, a previous
ER/ICU nurse, Columbia University graduate, who
had never been in trouble with the law or courts her
48 years of life. This all changed in May, 2020 after
Petitioner found out that her domestic violence
abuser and husband of then 18 years, Brian Stryker
Weinstein, a senior litigation partner at Davis Polk,
and a clerk on the Second Circuit Court of Appeals
under Judge Jose Cabranes from 1997-9, who has
heavy influence over the courts, was a pedophile.
(A3, A4)
WEINSTEIN
DEFENDANT
B.
ATTEMPTED KIDNAPPING AND FALSE
IMPRISONMENT OF PETITIONER After
confronting Defendant Weinstein on May 20, 2020
about his lifelong history of pedophilia, Defendant
Weinstein acknowledged, to his wife and children,
his lifelong indoctrination into pedophilia, and
agreed not to hurt them anymore.
The next morning Defendant Weinstein had
an about-face and went estranged.
.From May 2131, 2020, while Defendant Weinstein was estranged
and abandoned all care for his family, the children
remained safely with their Petitioner Mother, as was
affirmed over a period of weeks by DSS and
Defendant Officers who' were “investigating” the
pedophilia.

Defendant Weinstein attempted to have
Petitioner kidnapped and falsely committed to an
institution with the assistance of Eric F. Grossman,
Stephen J. Jones, Jeffrey Dyke, Dr. Cynthia Last,
and O’Connor Professional Group’s (OPG) Diana
Clark. OPG is a service which contracts with doctors
to falsify medical documents and falsely commit
people whom these “doctors” had never met. (A5)
Appendix E shows Defendant Weinstein, with
Jones’ coordination, signed contracts with OPG, paid
for their services mistakenly using the couple’s credit
card, was sent inpatient admission forms, and
provided OPG with Petitioner’s name and a list of
“hospitals” to take Petitioner. Appendix E also
provides evidence of Defendant Weinstein’s
gaslighting, denying that he was attempting to
falsely commit Petitioner, acknowledging he “can not
do that under the law,” and affirming his knowledge
Petitioner was of no threat to herself or others, all to
“give (Petitioner) comfort” while he plotted and
schemed.
C. POLICE AND DISTRICT ATTORNEY
RETALIATION As Petitioner was immune to the
gaslighting and had undeniable evidence of
Defendant Weinstein’s crimes, Petitioner thwarted
Defendant Weinstein’s actions and brought them to
the attention of Defendant Police Officers, most
namely Defendant Det Sgt Fred Galbraith, and
Defendant District Attorney Green and Molly
O’Rourke, of the Westchester County DA’s Office,
Domestic Violence Unit, where Petitioner previously
sought relief from Defendant Weinstein’s domestic
violence via the Victim Justice Network, as is
affirmed in Appendix 4.
Defendants actively stonewalled Petitioner,
refused to meet with Petitioner, even to accept
evidence. Petitioner dropped evidence at the police
station and Defendant Officers drove it back to
Defendant Weinstein.

3
Defendants refused to assist Petitioner with
securing an Order of Protection against Defendant
Weinstein.
Defendant Green and O’Rourke advocated for
Defendant Weinstein, saying he “sounded like a nice
guy” and “perhaps (Petitioner) should listen to him”
and abandon her children while their father was
missing.
Defendant Green, O’Rourke and Galbraith
said Defendant’s Weinstein’s action were “not
against the law,” despite proof that they were
against the law, and were acknowledged as such in
writing by Defendant Weinstein, a Yale law school
graduate and senior litigation partner at Davis Polk.
When Petitioner persisted, Defendant DAs
and Defendant Officers later brought unfounded
criminal charges against Petitioner, for which
Petitioner was continually denied access to the court
to be heard, consistently for eleven months.
D. FORUM SHOPPING TO KATZ AND
UNLAWFUL EX PARTE HEARING While
Plaintiff was placated and stonewalled by Defendant
Officers and DAs, Defendant Weinstein quickly went,
on June 1, 2020, around 3:30pm, to an out of
jurisdiction judge, Arlene E Katz, with a 150 plus
page “emergency” custody petition with conflicting
affidavits
submitted
and
willfull
false
representations in his petition.
New custody petitions in any form were
forbidden to be accepted and filed in New York State
Courts under “covid” administrative order AO/78/20
without advanced approval, which Defendant
Weinstein did not have.
At
approximately
4:07pm
Defendant
Weinstein then filed a Family Offense Petition (FOP)
with a different home address, and a conflicting
affidavit.

4
Defendant Weinstein’s FOP alleges no Article
8 evidence, falsifies facts, and contradicts police
reports (A6). Defendant Weinstein’s conflicting and
unlawful petitions were filed and heard ex parte by
Katz anyway, in violation of laws. (A7) Katz stated,
of Defendant Weinstein’s conflicting petitions, she
was “at a loss to read so many pages” and she
“couldn’t make heads or tails of it.”
Katz still granted Defendant Weinstein’s
requests, assigned Petitioner, a multi-millionaire,
court appointed and taxpayer paid counsel, Mr.
Marco Fava, who gagged Petitioner, refused to leave
the case, prevented Petitioner access to documents,
and assisted Defendant Weinstein, and assigned the
‘of age’ children (17, almost 16, and 13) an appointed
attorney, who also gagged, willfully misrepresented
the children, and denied them access to the court to
be heard.
E. CHILD TRAFFICKING BY KATZ AND
DEFENDANT OFFICERS On June 5, 2020 Katz
scheduled a “preliminary conference” but instead
held a “virtual hearing,” without notice to Petitioner.
The Petitioner and of-age children, having been
given misinformation from the clerk, presented at
the
courthouse.
Katz inexplicably instantly
dismissed Defendant Weinstein from the “virtual
hearing” from his location at Jones’ office.
Katz ignored the evidence that Defendant
Weinstein was estranged, missing for weeks, and
under an active pedophilia investigation, and that
the children were affirmed safe in the Petitioner’s
sole care by DSS and police for weeks.
Katz denied the 17 year old his right to
witness the hearing, refused to hear from the of-age
children, even by Skype, and refused to hear from
the Petitioner. (A8) Katz immediately said she was
issuing a ex parte full vacate and stay away
temporary order of protection (TOP), in favor of
Defendant Weinstein and included the of-age
children, against their wishes and without their
consent. Petitioner was not issued or served any
orders and left the courthouse with the children and
brought them home.

Defendant Weinstein then engaged Defendant
police officers to assist with kidnapping and
trafficking the children to him, despite the children’s
plea to their Father that he not invite policemen
against them, his own children (A9). Defendant
Officers spent over two hours inside the family home,
while the children were eating and talking, affirming
the children were safe with Petitioner, while
Defendant Weinstein paced at the top of the
driveway but refused to speak with his family
directly.
When the officers told Defendant Weinstein
the children were safe and they had no cause to
remove them or Petitioner, Defendant Weinstein
then had a new TOP sent directly to his phone
around 6:30pm on a Friday night, hours after the
Courts were closed. (A10) Defendant Officers then
secured a copy of the Order on their own, and read
the order to the Petitioner and children. (A10, All)
The of-age children told Defendant Officers
again they wished to remain safely with Petitioner,
but Defendant Officers, to wit Defendants Bassett
and Raffaelle, used criminal coercion and lied to the
children and Petitioner, stating Petitioner would be
“arrested for kidnapping” if her of-age children
stayed with Petitioner of the children’s own free will.
Not knowing the law, Petitioner and children
reluctantly complied.
Defendant officers evicted Petitioner from her
home, even during a time of covid moratoriums on
evictions, foisted a pedophile back on the children,
and ripped Petitioner’s protections away from the
children, even apologizing to Defendant Weinstein
that it “took so long” late Friday night, June 5, 2020.
F. DIVORCE FILING, RECUSAL OF ALL
JUDGES, EXTENSION OF ORDER, DENIAL OF
RIGHTS On June 6, 2020, the day after the children
were kidnapped and trafficked to a pedophile,
Petitioner filed for divorce in Supreme Court citing
Defendant Weinstein’s domestic violence and cruel
and inhumane treatment. (A12).

(o
From June 5-July 23, 2020, every judge in our
Family Court jurisdiction extended the Katz Order
and quickly recused themselves without cause,
kicking the case directly back to Katz in July 2020,
providing clear and convincing evidence of forum
shopping. (A13)
This Katz Order was extended and/or renewed
without due process to Petitioner. For over a year,
Petitioner has had no direct contact with her
children, has been left homeless, has had all of her
finances cut off by Defendant Weinstein, has been
denied legal fees, denied access to her home to get
her belongings, denied her mail, denied access to her
dog, denied the right to attend her children’s
birthdays, prom or graduation.
G.
CRIMINAL
COERCION
FOR
PROTECTING CHILDREN Over the course of
months, as Petitioner fought for the rights of her
children, Defendant Officers would harass then
falsely arrest Petitioner for alleged “violations,” such
as sitting peacefully in her car in an area she sat
daily, which was previously affirmed by Defendant
Officers to not be in violation of the unproven and
unlawful Katz Ex Parte TOP. (A14)
Defendant Village Judge Howard T. Code then
assigned new criminal TOPs to Petitioner, while
denying Petitioner access to the court to defend
herself.
Defendant Judge Code’s orders were
purposely vague as it related to modification of and
cancellation by the Family Court controlling order,
and Petitioner identified such at time of issuance.
(A 15)
Defendant Judge Code Orders imposed greater
restrictions on Petitioner and her children, outside of
standard protocol, absent of just cause or any
allegations of harm, endangering the welfare of the
children and subjecting the Petitioner to undue
criminal prosecution which was willfully pursued by
the DA’s Office, Domestic Violence Unit, to wit
Defendant Lauscher and Defendant Miller, who hid
Defendant Weinstein’s domestic violence, pedophilia,
and crimes.

7
Petitioner, a stay-at-home Mother for 17 years
who had never harmed anyone nor was any harm
alleged, and who Defendant Weinstein affirmed
himself in his affidavits and sworn statements had
no concerns of physical harm was constantly stalked,
harassed, intimidated by Defendant Officers. (A16)
Defendant Officers even set up “stake outs” at
a neighboring street over a quarter of a mile from her
home, hoping Petitioner would pass by the
neighboring street (not even the home), where
Defendant Officers could arrest her as said street
was approximately 1490 feet from the home, and the
new Code order mandated Petitioner stay 1500 feet
away. (A16)
H.
FRAUD, DENIAL OF ALL DUE
PROCESS IN KATZ COURT, ILLEGAL
REPRESENTATION There was egregious evidence
of fraud on filings in the Katz case, and Petitioner
was refused all access to her file for the seven month
duration of the case (A17).
Katz repeatedly assigned illegal, harassing
taxpayer-paid representation (to wit Ms. Christina T
Hall and later Mr. Marco Fava again) to Petitioner,
despite Petitioner having two lawyers of her own
choosing representing her, and despite being a multimillionaire and not meriting the trigger for courtappointed, taxpayer-paid representation. (A18)
I.
COLLUSION;
KATZ
COURT
PROTECTED PEDOPHILIA, NOT CHILDREN
Appendix 18, the July 22, 2020 Katz conference, also
demonstrates how Katz held Attorney Only
conferences, off record, despite Petitioner’s request
that there be no such conferences and everything be
on record.
During the on-record portion of the conference,
Petitioner’s three children were formally trafficked to
their pedophile father by the court, granting
Defendant Weinstein custody without a hearing, in
violation of court rules, without objection by
Petitioner’s nefarious “representation” Michael
Stutman and liana Sharan.

d

0

Custody to Defendant Weinstien also occurred
while Defendant Weinstein was the subject of a
pedophilia investigation, and Katz tampered with
witnesses. Katz gagged Petitioner with cooperation
of Petitioner’s lawyers, kicking Petitioner out of the
virtual conference then only allowing Petitioner back
in via Mr. Stutman’s cell phone, while Mr. Stutman
muted his phone and Petitioner’s objections. Katz
refused to address the concerns of Defendant
Weinstein’s endangering the children.
In a gross display of judicial malfeasance,
Petitioner’s protective medical and educational
oversight were inexplicably removed from the
children by a Katz court, at a time when Defendant
Weinstein was the subject of a pedophilia
investigation, was alienating and gatekeeping the
children, and Petitioner had well documented
concerns of the children’s abuse, coercive control, and
possible use of date rape drugs by Defendant
Weinstein.
J. MALPRACTICE; GATEKEEPING AND
CRIMINAL COERCION OF CHILDREN; KATZ
ASSIGNS HER FAMILY; PRO SE The assigned
“attorney for the children” (AFC) Gloria Marchetti
Bruck refused to meet with the children while they
were in Petitioner’s sole care, yet took positions
against the children’s wishes in court while
acknowledging she had never met with them. (A8)
Once the children (17, 16, 13) were trafficked
to Defendant Weinstein, Bruck willfully lied about
easily verifiable facts on record, refused the children
all contact with the Petitioner Mother, and gatekept
the children in violation of court orders which
mandated access. The children told adult friends
Bruck threatened their Mother would go to jail if the
children contacted their Mother, which was
documented in police reports. (A19)
Katz’s family company,
Comprehensive
Family Services, was assigned to “supervise” any
access the children had with their Mother, a clear
conflict of interest Katz acknowledged then excused
on record. (A18)

<?
Every one of Petitioner’s lawyers, to wit J.
Guttridge, S. Stone, J. Cambareri, W. Beslow, C,
Chimeri, J. Quatela, S. Arzourmanidis, J. Fellin, all
refused to secure Petitioner court mandated access to
Petitioner was only able to secure
her children.
access to her children while Pro Se in between
counsel.
Every one of Petitioner’s divorce lawyers, to
wit the aforementioned lawyers, plus R. Shum, M.
Stutman, I. Sharan, D. Stutman, refused to serve
Defendant Weinstein the divorce papers over the
course of eight weeks.
Petitioner went formally Pro Se and filed for
consolidation in Supreme Court with the divorce on
or around August 21, 2020. (A12)
All of Petitioner’s attorneys kept their full
retainer for even a few days worth of work, and all
but Guttridge refused to provide Petitioner their case
file.
K. WRIT OF MANDAMUS, ATTORNEY
GENERAL SEALING On or around September 11,
2020 Petitioner filed a Writ of Mandamus requesting
the following relief: to be heard on the Katz ex parte
TOP; to have the children removed from the TOP
given no harm was alleged to them and children
were affirmed safe with Petitioner at the time of TOP
issuance; and to be re-established to her home given
Petitioner was unlawfully evicted by Katz while
Defendant Weinstein had willfully established his
own residence and informed the court of such (see
All) and a NYS “covid” moratorium on evictions was
in place. (A20)
Judge Melissa Loehr denied Petitioner access
to the court. Court Clerks and NYS Asst Attorney
General Terrance DeRosa, counsel to Katz, tampered
with the writ file. (A20)
To wit, Court Clerks refused to upload the
original file, changed the filing date from September
11 to September 18, 2020, and misrepresented to
Petitioner that Petitioner’s letters to court were filed.
Asst
Attorney
General
Terrance
DeRosa
misrepresented filings and service to Petitioner, and
had files deleted. Petitioner was originally unaware
of the tampering as Petitioner was denied access to
NYSCEF.

/d
Petitioner was granted NYSCEF access midNovember, at which time Petitioner brought the
NYSCEF and other impropriety to Judge Loehr’s
attention. Loehr recused herself on November 19,
2020 and Judge Susan Cacace was assigned.
Cacace further delayed the case and denied
Petitioner and her children access to the court,
denied oral arguments, denied Petitioner access to
her home and denied all due process. Cacace waited
until the Family Court case was consolidated on
December 1, 2020, and then dismissed the case as
“moot” on December 22, 2020, 102 days after filing.
Cacace sealed the file upon request from the
NYS Attorney General’s office.
L. WILLFUL COERCION, DENIAL OF
RIGHTS BY KOBA During court hearings
Petitioner was berated for not being able to medically
tolerate a mask, and coerced to sign forms and
cooperate with Mr. Weinstein’s requests or
threatened Petitioner would not see her children.
(A21)
On or around November 2, 2020, Petitioner
was notified that the Koba divorce court was willfully
delaying the August consolidation motion until
December, 2020. (A22)
From August to December, 2020 Judge Nancy
Quinn-Koba denied Petitioner access to her children,
support, housing and legal fees. (Koba ordered
support and housing but did not hold Defendant
Weinstein in contempt when he refused to comply.
Petitioner has never been granted any legal fees in
any case to date in over a year.)
Koba consolidated the case on December 1,
2020, immediately assigned the Petitioner illegal
representation of Christina T. Hall in violation of
NYS Civil Practice Law and Rules, denied Petitioner
direct access to her children, denied Petitioner access
to the court, and assigned Petitioner a new ex parte
TOP in violation of NYS Domestic Relations Laws
which prevent ex parte TOP upon consolidation and
which mandate both parties be heard.

4

//

Koba refused to sign Petitioner’s OSC’s to be
heard on the ex parte TOP, to hold Defendant
Weinstein in contempt for violation of court orders
for housing or support, or for Defendant Weinstein’s
dissipation of marital and Petitioner’s personal
assets totaling over $240,000 which has never been
recovered. (A30)
II. JANUARY 4 IMPRISONMENT FOR
“NO MASK” On January 4, 2021, after seven
months of being issued judicial orders in four
different courts, but not being allowed access to the
court to advocate for or defend herself or her
children, or granted any real relief, Petitioner
presented to her Village Hall to file a Freedom of
Information request and to file a letter in her case
regarding Village Judge Howard T. Code’s denial of
due process since July 2020. (A23)

A. FALSE ARREST WITH EXCESSIVE
FORCE, “MASK” CONCERN A FARCE
Unbeknownst to Petitioner at the time, Defendant
Court Clerk Zirman and Village Manager Zegarelli
immediately contacted the Village of Briarcliff Manor
Police, who resided in the same building, to remove
Petitioner from the public building stating they did
not wish to “deal with her” (A24). Defendant Court
Clerk, Rori Ziman, and Defendant Village Manager
Philip Zegarelli, were, upon information and belief,
assisting Defendant Weinstein in preventing
Petitioner access to the court, and had been refusing
to perform their duties to assist Petitioner since July
2020 (A25).
Defendant Officers Wilkinson and Chief Bueti
arrived, and Defendant Zegarelli ask they escort
Petitioner out of the building, citing Petitioner’s
inability to wear a mask.
Defendant Officer
Wilkinson unlawfully ordered Petitioner leave the
public building or be arrested, and Petitioner, who
had been recording the incident on her phone,
complied, informing officers she would be posting the
video.

Us
Petitioner
Defendant
Bueti
granted
permission to hand in her forms prior to leaving, but
entrapped Petitioner, first closed the door on the
back of Petitioner, then immediately knocked the
phone and papers from Petitioner hands, pinned
Petitioner up against the wall, and arrested
Petitioner. (A26)
Defendant officers charged Plaintiff with
“disorderly conduct” at the time of the arrest, then
later changed the charge to “obstruction of
government administration 2” and added “resisting
arrest.”
Defendants Zegarelli and Wilkinson lied
about easily verifiable facts in their video statement
and Zegarelli affidavit. (A27).
Defendant Zirman and Zegarelli can be seen
on the police body cam not wearing a mask
themselves less than two minutes after they just had
Petitioner arrested for not wearing a mask.
Defendant Officer Wilkinson tampers with evidence,
witness testimony, and sound recording on the body
cam video to assist Defendant Zegarelli.
B. DENIED RIGHTS, ILLEGAL SEARCH
AND SEIZURE
Petitioner was manhandled by
multiple Defendant Officers with excessive force,
who refused to hear or take any exculpatory
evidence, and refuse to hand in Petitioner’s forms.
Petitioner was brought to the police station
and chained to a wall for hours, instead of a being
given a ticket and released as misdemeanor charges
would dictate. At no time did any officers read
Petitioner her rights. Petitioner was denied access
to a lawyer or any witness. Defendant Officers
continually refused to take exculpatory evidence.
Petitioner documented these facts immediately via
affidavits filed while she was held. (A27)

Petitioner’s belongings, including her car,
keys, purse, ID, bag, money, wallet, confidential
documents and notepads, and multiple phones,
which contained damning evidence of police and
Defendant Weinstein harassment, stalking, crimes
and abuse, and exculpatory evidence for Petitioner,
were illegally searched and seized.
Defendant Officers berated and harassed
Petitioner, and acknowledged that they were
violating her rights and excessively detaining
Petitioner.
Defendant Judge Howard T Code presented to
the police station hours later for an arraignment,
had no interaction with Petitioner except to say hello
as he passed, then conferred with Defendant Officers
ex parte, in an adjoining room, for over an hour.
Defendant Code denied Petitioner an
arraignment and sent Petitioner instead to solitary
confinement at the Westchester County Correctional
Facility.
Defendant Officers denied Petitioner access to
her phone to get a lawyer’s phone number, and
denied Petitioner a phone call to notify her family or
friends she was being transferred to prison.
Defendant Officers refused to transfer Petitioner’s
belongings with her to the prison.
C. VIOLATIONS AT PRISON Petitioner
was stripped searched, harassed, intimidated,
coerced, denied access to a lawyer, denied dietary
accommodations, was placed in solitary confinement
and on “suicide watch” (thus denying Petitioner
access to a book, pencil, paper, bedsheets, and
undergarments, and keeping the bright lights on 24
hours a day). Petitioner was in no way suicidal and
expressed such to every officer and medical
personnel, making it clear such designation was
punitive and not “for her safety.”

At the facility, Petitioner told prison officers
she could not medically tolerate a mask. Prison
guards then denied Petitioner an opportunity to call
a lawyer, and Sgt West later charged Petitioner with:
disorderly conduct, creating and/or maintaining a
fire, health or safety hazard, and disobedience of
orders. (A28) Petitioner was denied her right to file a
grievance for not being able to contact an attorney,
and said grievance requests were returned to
Petitioner. (A28)
Petitioner was denied time out of the cell, in
violation of state laws, as she could not medically
tolerate a mask.
Petitioner attempted to exercise her right to
deny consent for medical treatment, testing, or
experimentation, but was forced medical visits
despite denying consent (to wit, one by Dr. Michal
Kunz, psychiatrist, who refused to leave the cell),
and was coerced into unwanted medical
experimentation, xrays, and medical testing, with
the lure of being let out of her cell if she complied.
D. JANUARY 5 ARRAIGNMENT Defendant
Judge Howard T Code held a virtual arraignment on
January 5, 2021, and attempted to assign Petitioner
an unethical attorney, Defendant Marie Vitale, who
Defendant Code had previously tried to assign and
whose “services” Petitioner refused. Petitioner made
it known she was competent and capable, wished to
remain Pro Se, and asked Ms. Vitale to sit as Second
Chair solely for the purposes of having Outside legal
contact.
At the arraignment Defendant Code remanded
Petitioner to prison for seven weeks. Defendant
Code then ordered a 730 “competency exam,” all
during “covid,” and while Petitioner’s competency,
and insight into her case, was self-evident. Plaintiff
made note of Code’s coercion on record, as Code was
forcing Plaintiff into a malicious psychiatric exam,
which was heavily coveted by Defendant Weinstein
for Weinstein’s nefarious control over Petitioner.

Defendant Code also issued an Ex Parte
Temporary Order of Protection in favor of Defendant
Village Manager Zegarelli, preventing Plaintiff from
coming to Village Hall or the Police Station as they
were his “place of business” and issued it for longer
than one year, through December 2021. (A27)
It was later revealed Defendant Code falsified
documents, backdating that an arraignment was
held on January 4, 2021 and Petitioner was
remanded for a 730 exam at that time, when
Petitioner was, in fact, never before Defendant Code.
(A27)
Petitioner has been denied any copies of the
transcripts from the January 5, 2021 arraignment, or
the alleged January 4, 2021 arraignment Code
purports, or any Code proceeding for the past year,
despite constant requests to release the transcripts
to an approved transcriptionist of Petitioner’s
choosing. (A29)
E. JANUARY 8 “BAIL” HEARING Ms.
Vitale did not contact Plaintiff while Plaintiff was
falsely imprisoned. Plaintiff was able, after three
days, to contact a new lawyer, Richard Ferrante, who
was recommended by one of the guards. Ms. Vitale
was then contacted to terminate all services. Mr.
Ferrante was instructed by Petitioner to take the
case to an Appellate Court to immediately Vacate the
Code orders.
Petitioner remained imprisoned in solitary
confinement for five days.
On January 8, 2021, without advanced
communication or notice, Judge Anne E. Minihan
held a “bail hearing” at Mr. Ferrante’s request, in
violation
of
Petitioner’s
directives,
when
misdemeanors do not require bail.
During the hearing, Judge Minihan and Mr.
Ferrante
admonished
Petitioner,
and
the
unidentified DA requested Petitioner not be released
or “given bail.”
Minihan demanded Petitioner
comply with psychiatric exams or they would “haul
her back to prison,” reinforced the Zegarelli TOP,
and reluctantly ordered Petitioner released on her
own recognizance.

Petitioner has been denied a copy of the
hearing transcript by Defendants Malone and Code,
as Judge Malone claims the transcript is sealed from
Petitioner. (A29)
F. JANUARY 8 FALSE IMPRISONMENT
After the hearing. Petitioner was not released and
was placed back in solitary confinement for hours.
During that time, Petitioner was visited by a
“psychologist,” later known to be Jerome Norton, who
requested to do an exam to determine if Petitioner
was “competent.”
Petitioner did not consent to the exam,
informed the psychologist she was already
technically released, and simply provided clear and
convincing evidence to satisfy the requirement of
competency, to wit: her name, address, contact, year,
location, names and duties of people in the
courtroom, charges for which she was held and the
accompanying sentencing, then asked for the
psychologist to leave.
The psychologist refused to leave and tried to
coerce Petitioner, but sensing nefarious intent,
Petitioner made it clear she was not consenting to
any further discussion or any “examination” in any
way.
Petitioner was held for hours longer after the
psychologist left. At approximately 9p Petitioner
was brought out of her cell and told she was being
released. Petitioner was led to a room to get changed,
but inside the room were three woman guardsmen
who instead shackled Petitioner’s hands, waist and
feet with heavy chains.
Petitioner was brought to Westchester County
Hospital Psychiatric Emergency Room, where two
guardsmen tried to have Petitioner seen and falsely
admitted. Petitioner made her competency and her
medical background known, highlighted the
guardsmen’s malicious intent, and advocated for her
release. Physicians tried to falsify documents, which
they then corrected, and Petitioner was immediately
released on her own recognizance.

As all of Petitioner’s belongings, ID, money,
keys, car, purse, and wallet were still illegally
confiscated by Defendant Officers, Petitioner was
given a taxi voucher to a local friend’s home.
Defendant Officers willfully seized Petitioner’s
belongings for four days after Petitioner’s release,
and seized Petitioner’s two cell phones for two
months.
G.
DISSIPATION OF ALL MARITAL
AND PERSONAL ASSETS DURING FALSE
IMPRISONMENT
During Petitioner’s
false
imprisonment from January 4-8, 2021, all of
Petitioner’s marital and personal accounts, totaling
over $230,000 at Citi Private Bank were closed on or
around January 5, 2021 and checks issued directly to
the home and attention of Defendant Weinstein, as
was confirmed by citi private bank COO Mark
Davidson. (30) Mr. Davidson refused to provide front
and back copies of the checks issued, refused to put a
stop payment on the checks, and refused to have the
checks reissued to a local branch. Defendant Officers
and the FBI refused to investigate the grand larceny,
and Judge Koba (divorce) refused to hold Defendant
Weinstein in contempt for dissipation of marital
assets, which are still “missing.”
H. APPELLATE COURT FRAUD In
December, 2020, Petitioner submitted five appeals
and a 5704 Review for Decisions and Orders from
Koba (divorce) and Cacace (writ). (A12, A20) The six
motions were filed directly in the NYS Appellate
Court, Second Judicial Department via NYSCEF,
with notice given in the court of original issuance.
After Petitioner was released from the false
imprisonment, it was discovered all of Petitioner’s six
electronic files were deleted from the Appellate Court
NYSCEF system, and Court clerks claimed the
electronic files electronic were “missing.” (A31).

After weeks of the NYS Supreme Clerk’s
Office and the Second Judicial Department Clerks
Office “locating” and “processing” the missing
electronic files which were still present on the
Supreme Court NYSCEF filing, a "telephone
conference” was eventually held for the 5704 review
of the Koba Ex Parte TOP, on or around February
17, 2021, months after filing, in violation of standard
procedures that 5704 reviews are conducted
expeditiously. (A32)
During the “conference” Petitioner was denied
access to the court to be heard in front of a judge,
denied an en banc review, and was told the clerk
Wendy Stynes would “hear both sides of this case.”
Stynes abruptly ended the “conference” without
hearing from Defendant Weinstein. Petitioner was
issued a singular order stamped from Judge Robert
J. Miller denying any relief hours later. (A33)
Subsequent 5704 Reviews produced similar
results with no access to the court and multiple
decisions issued on the same 5704 review, including
an “order” from Ms. April Agostino that ex parte
TOPs were not entitled to 5704 review, contrary to
law. (A33)

I. CODE DENIAL OF DUE PROCESS
Defendant Code continued to cancel hearings, deny
Petitioner access to the court to be heard on the
charges stemming from the January 4, 2021 false
arrest and imprisonment for “no mask,” continued to
assign illegal representation Defendant Marie Vitale
to the case, continued to deny Petitioner access to
her file, and refused to release transcripts unless
Petitioner consented only to a transcriptionist chosen
by the court. (A15)
J.
CODE
“HEARING
TO
SELF­
REPRESENT BASED ON THE 730 EXAMS” On
March 2, 2021 Defendant Court Clerk Zirman
emailed Petitioner regarding a hearing on Monday,
March 8, 2021 at 3pm, to “address the competency to
self-represent based on the 730 exams.” (A15)

/?
Petitioner noticed the Code Court that said
hearing was improper as Petitioner had been Pro Se
for nine months, Petitioner had not participated with
any “competency exams,” the email was not proper
notice, Petitioner could not attend, and Petitioner
could not medically tolerate a mask, and masks were
required for attendance. Petitioner requested a new
court date with proper notice, access to her file,
discovery and transcripts. The Code court denied all
of Petitioner’s proper requests.
K. 1983 CASE 7-21-CV-01996-CS On March
8, 2021, at approximately 12:50pm, Petitioner
presented to Village Hall to file documents with the
Code Court and was denied access, even though
posted signs affirmed Village Hall was open for walk
in services through l:30p. Village employees even
refused to speak to Petitioner through the locked
door, because Petitioner was not wearing a mask
outside.
Petitioner then filed, via submission to the
temporary Pro Se filing email, a 1983 case 7-21-cv01996-CS in the US District Courts, SDNY, showing
violations of Petitioner’s civil rights by the Defendant
Officers, Village, DA’s, Code Court, and Defendant
Weinstein.
(A34) Petitioner filed a motion for
emergency access to the Court to be heard, and ■
emergency injunctive relief to have a stay on all Code
orders until such time the alleged violations were
addressed. (A34)
Petitioner was originally given case number 121-01996 but this case number was changed after
Petitioner spoke openly about the case on social
media.
L.
KIDNAPPING BY
CODE AND
DEFENDANT OFFICERS On March 9, 2021,
Petitioner received an email from Defendant
Christine Dennett, with a mandated advanced
appointment to come to Village Hall during open
walk in hours to pick up documents and discuss the
outstanding FOIL requests.

20

When Petitioner arrived at Village Hall for the
appointment, Petitioner was locked out again, then
eventually let into the building by Defendant Det
Galbraith.
As Petitioner ascended the stairs,
Defendant Galbraith and Chief Bueti (not shown on
video) grabbed Petitioner from behind and kidnapped
Petitioner. (A35) The two men chained Petitioner to
the wall in the police station. (A35)
M. DENIAL OF DUE PROCESS, CODE
“COMPETENCY” DECLARATION Defendant
Officers stated there was a “bench warrant” for
Petitioner’s arrest, but no warrant was ever
produced or served to Petitioner. Petitioner was
denied access to an attorney or any witnesses.
Petitioner was physically forced by Defendant
Officer Egan and Salov into a ready courtroom where
Defendants Judge Code, DA David Lauscher and
Rori Zirman were readily waiting, even though it
was a Tuesday and Court was only held on
Wednesdays in our village.
Plaintiff made it known to Judge Code she
wanted an attorney present and was being denied
access to one. Defendant Lauscher told the court he
recommended Petitioner be declared “incompetent.”
Petitioner informed the court she was of sound mind
and body, fully competent, and had a right to
represent herself Pro Se in her cases, and a right to a
full hearing.
Defendant Code made a unilateral declaration
of Petitioner as “incompetent” despite all facts and
exculpatory evidence, dismissed all charges against
Petitioner, and instantly remanded Petitioner to
prison.
When asked why she was being remanded to
prison with no criminal charges, Defendant Code did
not have a legal reason. Petitioner was again
chained to the wall in the police station, where
Defendant Officers berated her and told her she was
getting what she deserved. Petitioner was denied
access to a lawyer or her friends or family.

A concerned friend came to the police station.
She was refused access to Petitioner but was able to
record Petitioner through a crack in the door being
(A35) Defendant Officers
chained to wall,
reluctantly agreed to allow the friend to take
possession of Petitioner’s belongings, including
Petitioner’s two cell phones, which Defendant
Officers had illegally seized for over two months, and
previously misrepresented were in the possession of
the DA’s office.
The friend was able to record Petitioner as
Defendant Officers were loading her in the car,
confirming Petitioner was of sound mind and body,
not a threat to herself or others, and Defendant
Officers were transferring her to prison. (A35)
Petitioner has been denied any Code Orders,
or transcripts, from the March 9, 2021 “hearing” by
the Code Court.
N. TRANSFER TO PRISON ABSENT OF
CRIMINAL CHARGES Petitioner was transferred
to Westchester County Correctional Facility in
Valhalla, NY where she was processed, stripped
searched, harassed and intimidated, and denied
access to any of Code’s Orders, and denied access to
speak to a lawyer. Petitioner was coerced into
speaking with a “mental health” social worker, then
locked in a holding cell with a phone that allowed for
outgoing collect calls.
Petitioner reached the friend who notified her
on the recorded call a lawyer would come to the
prison to release her. Prison officers then burst into
her cell and told Petitioner she was being
immediately transferred (coincidentally to one of the
“hospitals” in Defendant Weinstein’s May 2020 OPG
contract), and she could not see her attorney. (A35)
Petitioner’s feet, waist, and hands were
shackled and she was loaded and left in the back of a
van for transfer. Officers informed Petitioner she
“was never processed or booked” and no discharge
papers were given prior to leaving.

2^
O. INVOLUNTARILY COMMITTED BY
CODE ORDER Petitioner was transferred to St
Vincents Hospital in Harrison, NY. Petitioner was
greeting by over five different waiting staff, including
Dr. Efobie, NP Mohammed Tayeb, and Dr.
Weinstein. It is unclear if Dr. Harlam, Medical
Director was present.
Petitioner informed the staff she was of sound
mind and body, no threat to herself or others, had
insight into her health, and asked to speak to her
lawyer, the Medical Director, and the Patient Care
advocate.
Petitioner was told by Dr. Efobie she was
being involuntarily committed to St Vincents by
Judge Howard T Code, had no option but to
cooperate, and if Petitioner was “difficult” Dr. Efobie
would transfer Petitioner back to prison where
Petitioner would “remain for five days then be
transferred to a state run mental facility.” Dr. Efobie
refused to tell Petitioner on which criminal charges
she would be held.
Petitioner was denied a copy of any Code
Order. Petitioner did not consent to an exam by Dr.
Efobie, but Dr. Efobie willfully misrepresented
Petitioner on hospital forms as having been
examined and “manic,” “agitated,” “unstable,” “very
paranoid,” “physically aggressive,” and “had no
insight,” contrary to actual video and written
evidence that proves otherwise.
Petitioner noted on all forms that she was of
sound mind and body and fully competent, and did so
daily, but was admitted anyway that day, March 9,
2021, a day after filing the 1983 case, in violation of
Mental Hygiene Laws. (A36)
P. VIOLATION OF HIPPA LAWS,
PATIENT RIGHTS On March 10, 2021 Petitioner
filed with Melissa Toothill, the Mental Hygiene
Legal Services (MHLS) requesting a hearing within
five days, in accordance with NYS Mental Hygeine
Laws. Melissa Toothill, who is employed by the
courts, refused to submit the letter, and any
evidence, affidavits or affirmations on Petitioner’s
behalf, and no hearing was held until March 19,
2021. (A36)

22>
Petitioner was coerced, harassed, threatened
and preyed upon by staff at St. Vincents. Staff, to
wit Mr. Mohammed Tayeb, Dr. Alexandra Cattan and
Jill Rosenberg, SW, made it known they were in
constant contact with Defendant Weinstein, in
violation Petitioner’s written and expressed wishes,
and of HIPPA laws.
Mr. Tayeb said Petitioner was admitted for
“accusing your husband of pedophilia” and causing
“distress to people in the community.” Dr. Cattan
and Ms. Rosenberg made it known Defendant
Weinstein was mandating Petitioner’s stay, and that
Petitioner “would not be leaving for a very, very long
time” and would require the care of a “guardian” at
the time of discharge. Dr. Cattan told Petitioner the
court would force medications, “the law means
something,” and “your ex-husband is a lawyer, you
know how the law goes.” (A36)
Petitioner was isolated from outside contact,
denied the right to mail letters or file court
documents, and told by MHLS this was for
“therapeutic” purposes.
Q. SDNY SEIBEL DENIES ALL ACCESS,
BESTOWS
“JUDICIAL
IMMUNITY,”
DOCUMENT TAMPERING Petitioner was able to
sneak out hand written letters and motions which
were then filed by friends and advocates in
Petitioner’s physician of
Petitioner’s 1983 case,
eighteen years performed a witnessed televisit and
affirmed to the Court that Petitioner was not suicidal
or homicidal. (A34)
Documents in the 1983 file were deleted, all
motions were ignored. Judge Karas was inexplicably
relieved and replaced with Judge Cathy Seibel.
Cathy Seibel documented ex parte communications
and filings that were not served to Petitioner. (A34)
March 18, 2021 Seibel dismissed all of
Petitioner’s motions, dismissed Defendant Judges
and DAs, and prevented the Case from being
served.(Al)

FORCED
RETENTION,
R.
MEDICATIONS OVER OBJECTIONS Petitioner
was served papers on March 18, 2021 by hospital
administration, motioning for “medications over
objection” at the March 19, 2021 hearing, without
proper notice, in violation of Petitioner’s due process.
Petitioner was denied any access to counsel of
her own choosing, or any counsel, at the March 19,
2021 “hearing,” and was Pro Se.
Judge Anne E Minihan, the conflicted judge
who previously violated Petitioner’s rights on
January 8, 2021, who was not a regular judge for the
Mental Hygiene courts, presided over a virtual
hearing, despite Petitioner well-founded advanced
objections that any related Judge was conflicted.
Judge Minihan overruled the objections without
hearing the merits for such.
Dr. Cattan, the doctor petitioning for the
forced medications acknowledged,
on crossexamination by Petitioner, Cattan had never once
examined the Petitioner and the “physicals”
submitted to the Court were perjured. Petitioner’s
primary care physician of 18 years affirmed via letter
Petitioner was not suicidal or homicidal.
A
whistleblower came forward and testified on record
of Cattan’s abuse of patients and forced medications.
Judge Minihan denied Petitioner’s request for
release and mandated Petitioner, a 49 year old
woman on no medications her whole life, be forced a
dangerous, broad spectrum list of medications,
including Haldol injections, lithium,
Depakote,
Zyprexa, Ativan, Benadryl and others. (A36)
Petitioner was released on April 2, 2021 of her
own recognizance and immediately notified cigna
insurance of the false imprisonment and insurance
fraud.
S. EX POST FACTO ORDER, IMMEDIATE
ARREST Judge Lewis Lubell, Chief Judge for
Matrimonial Part, took over the divorce case on April
5, 2021, without any recusal orders on record.

April 16, 2021, Judge Koba, who was no
longer on the case, filed an ex parte, ex post facto
Order, naked of any accusatory instruments, via
NYSCEF which was never served to Petitioner,
(A3 7).
which included Petitioner’s adult son.
Petitioner was arrested within minutes of the
NYSCEF order filing, absent of a warrant or exigent
circumstances, for alleged violations that occurred
when no TOP existed at the time. (A38)
T. HOUSE FIRE, SPOLIATION OF
EVIDENCE On or around May 11, 2021 Petitioner
had a housefire in her home in the middle of the
night. All doors were inexplicably locked and fire
alarms disabled. Defendant Judge Code is a wellknown firefighter in Briarcliff Manor, NY. Upon
information and belief, the fire is currently being
investigated.
The following day, Petitioner’s social media
account with
thousands
of followers
was
deplatformed without cause and Petitioner’s online
file storage was broken into and files deleted.
Cathy Seibel denied all requests for
preservation of evidence contained in the accounts.
(Al)
U.
SECOND CIRCUIT COURT OF
APPEALS TAMPERING WITH EVIDENCE AND
DENIAL OF DUE PROCESS. Petitioner filed
appeals in the Second Circuit Court. Petitioner was
granted Pro Se electronic filing privileges. Evidence
of Defendant Weinstein’s acknowledgement of
pedophilia was deleted from the Second Circuit file.
(A2). Petitioner posted publicly about the deletion
and impropriety with the assignment of counsel by
the Court Clerk, and Petitioner’s electronic filing
privileges, and ability to contact the court, were
revoked in retaliation. (A2)
V. SDNY DENIAL OF DUE PROCESS,
WILLFUL MISREPRESENTATION, 1-21-04543LTS On or around May 19, 2021 Petitioner filed a
federal case demonstrating the Appellate Court
February 2021 fraud. Petitioner filed electronically,
via the Temporary Pro Se filing email, in the U.S.
District Courts, Southern District of New York.
(A3 9)

2b
Petitioner filed an emergency request for
injunctive relief on the Koba and Lubell ex post facto
orders, and a separate motion for approval of Pro Se
electronic filing so Petitioner could pay for all fees
immediately on Pacer, the federal online filing
system.
No judge was assigned to the case until June
17, 2021, at which time Chief Judge Laura Taylor
Swain was assigned. Chief Judge ignored the motion
for electronic filing and requested payment within 30
days. Petitioner immediately replied the same day
with a letter explaining the need to pay
electronically, and the retaliatory actions of the
Defendants which required her immediate attention.
The letter was filed, but willfully misrepresented on
the docket. Another letter to Swain outlining the
dire urgency was submitted for filing on June 18,
2021, and said letter was confirmed to be received by
the court, but not filed. Swain denied Petitioner
access to file and pay electronically. (A39)
W. ARTICLE 81 FILED BY DEFENDANTS
Defendant Weinstein and Dina Kaplan, a conflicted
lawyer who is also a defendant in case 1-21-04543LTS, filed an Article 81 Proceeding against
Petitioner, requesting full legal, medical, financial,
social control over Petitioner, the ability to place
Petitioner in a long term care facility and force her
unneeded medication, access to all of Petitioner’s
confidential documents, the ability to assign
Petitioner a lawyer in cases she is Pro Se, and to be
paid, out of Petitioner’s assets, for the guardianship
services. (A40)
Judge Janet Malone ignored evidence of
malicious intent and conflict and ordered Defendant
Weinstein, Petitioner’s domestic violence abuser and
stalker, serve Petitioner at her confidential
whereabouts.
Malone
appointed
illegal
representation, Anne Penachio, to Petitioner, and
denied Petitioner access to her own money to hire an
attorney of Petitioner’s own choosing. Ms. Penachio
accepted the case against Petitioner’s clear directives
and took positions against Petitioner in court.

£7
Defendants Weinstein’s and Kaplan’s experts
for the hearing on Petitioner’s “competency’ are
Defendant Bueti, Defendant Zirman, and Dr. Kunz
and Mr. Norton, the “competency evaluators” from
the prison with whom Petitioner refused to meet.
Petitioner has provided the Malone court
copious, undeniable evidence of Petitioner’s
competency, yet Malone continues to proceed with
the case.
Malone has denied Petitioner discovery,
denied Petitioner witnesses or court advocates to
attend any hearings, denied Petitioner access to
transcripts, denied Petitioner access to the court
virtually, and held a conference without all parties
present where she advanced Defendant Weinstein
and Kaplan’s requests of the court.
Malone had a tactical admission of the court’s
lack of jurisdiction on record, yet refused to dismiss
the case sua sponte.
Malone
scheduled
another
hearing
Wednesday, June 30, 2021.
X.
DEFENDANTS
WITHHOLDING
COURT DOCUMENTS
Defendant Weinstein has been withholding all
of Petitioner’s mail, including vital court documents,
for over a year. Defendant Weinstein will arbitrarily
and capriciously sometimes give Petitioner her mail
after the case or filing deadlines have passed, as was
the case with 1767/2020 and filings by Attorney
General DeRosa and Judge Katz.
Katz and DeRosa, for their part, were mailing
documents to Petitioner’s home while Katz was
knowingly and actively preventing Petitioner from
getting Petitioner’s mail.
Defendant Weinstein and Dina Kaplan are
currently preventing Petitioner access to court
documents from opposing counsel Silverman and
Chen. Petitioner requested Silverman & Chen file
allthat were mailed to Defendant Weinstein’s
location

}

Defendant Weinstein filed a duplicative
divorce proceeding in the Westchester Supreme
Court, 57121-2021, on May 24, 2021, the day of his
bogus filing for Guardianship . Defendant Weinstein
has not served Petitioner tn e filings, summons, or
motions, providing evidence of gross impropriety, but
references the new divorce case in his Article 81
filing, which is how Petitioner first became informed
about the filing.
Defendant Weinstein also references a case
American Express National Bank v. Elizabeth
Weinstein, 52851/2021. Petitioner has not been
served this case and has no knowledge of it, except
that Defendant also references this case in his
Article 81 filing.
These facts provide further
evidence of Defendant Weinstein tampering with
Petitioner’s mail and legal documents, severe
financial abuse, and the irreparable legal harm
Defendant Weinstein’s domestic violence is having on
Petitioner’s life.

REASONS FOR GRANTING THE WRIT
I. Supreme Court Rule 11
While parties are not standardly entitled to
treat the Supreme Court of the United States as a
court of first review, exception is given when “the
case is of such imperative public importance as to
justify deviation from normal appellate practice and
to require immediate determination in this Court.”
(REHNQUIST, J.) Sup. Ct. R. 11.
The pervasive gross violations and denial of
constitutional rights, file tampering, and impropriety
of the lower courts forced Petitioner to the Supreme
Court for the extraordinary relief of writ of certiorari
before judgement. Certainly, this is a clear example
of why such a writ exists.
II. Judicial Tyranny and Mask Restrictions at
War with Constitution
The urgency here is obvious: the issue of
judicial tyranny and mask restrictions are ubiquitous
across our country and are at war with our
constitution. This court’s jurisdiction is invoked not
to resolve a lower court dispute, but to firmly decide
on the constitutionality of ubiquitous practices
pervasive throughout our federal courts.
III. Desecration of All Individual’s Rights
It is not the rights of one individual that is in
question in this case, but the rights of all
individuals.
Every one of Petitioner’s rights is being
violated our government, while denying due process.
Petitioner’s rights to liberty, to the care and custody
of Petitioner’s children, to my property, to all of my
finances, to bear arms, to be free from retaliation
from my government, to be free from cruel and
unusual punishment, to free speech, to medical
freedom, and to Petitioner’s mail has been denied to
Petitioner for a solid year, all while Petitioner is
denied access to the Court to be heard, or any due
process at all.

Petitioner is being hunted and punished by
our government, specifically our judiciary, for
standing up for Petitioner’s inalienable rights and
the safety of my children, for exposing pedophilia,
and exposing the defrauding of our citizens during
this time of “Covid.”
There is no legal, plausible deniability for the
government’s actions, although Defendants may try
some desperate smoke screen, slight of hand, or legal
sophistry to hide the facts of this case.
This is a case of judicial tyranny, and the
national impact of this case to each citizen extends
far beyond the particular facts and parties involved.
The horrific nature of my case is also clear:
my case is not unique. The tyranny over United
States citizens is evident in every state, and has hit
a fever pitch since “covid” began. We The People
have been watching closely as tyrannical Executive
and Judicial Orders are being issued and enforced,
orders which are clearly unconstitutional.
Individuals seeking relief must do so through
the very same agents desecrating individual rights.
One needs only to look at the Supreme Court’s own
Pro Se restrictions to understand the very subtle
yet clear “separate but lesser” rights of the
individual being propagated in our judicial system,
starting from the top.
In analysis of these
restrictions, I remind this Court that which I can
not do in my person I can not do through the agency
of another.
We The People have watched as the Roberts
Court stood divided, yet eventually sided with the
constitution in Archdiocese v. Cuomo. While the
outcome was favorable, it was horrific to see the
highest court in the land so divided on clear denial of
We The People’s constitutional rights.

IV.

Urgency
Warranting
this
Court’s
Immediate Intervention
In addition to the willful deprivation of rights,
the timing in this case is crucial. I am being
subjected to a witchhunt Article 81 proceeding,
farcically sought by Defendants in my case.
Defendants virtue signal to Judge Malone,
shamelessly alleging that my advocacy against
judicial tyranny, for my rights to due process, and to
be free from medical harm do not “show regard for
the authority of the Courts or the consequences of
(my) behavior towards the Courts.” All attempts to
have the lawfulness of such a proceeding assessed
have fallen on deaf judicial ears, including those of
Laura Taylor Swain, Chief Judge of the Southern
District of New York.
Power corrupts. Absolute power corrupts
absolutely.
One only has to look to the International
Family Court Reform or “Free Britney” worldwide
movements, and the release of Bill Cosby to see how
the timing of this case aligns with international
outcry about the court’s lawfulness. Millions around
the globe are waking up to a horrific truth: our
judges traffic humans to abusers, in plain view,
without accountability, and protect predators.
Citizens, both adults and children, are being hunted
by their government, with no relief in sight from the
irreparable harm by state actors.
Time is of the essence. Human trafficking,
mask mandates and covid restrictions are choking
the individual freedoms our creator bestows and our
constitution acknowledges. I, and every citizen, have
a right to due process to assess the lawfulness of
these draconian, retaliatory restrictions on my rights
and the rights of my children.

What right does another citizen, whose salary
I pay, have to traffic me? Why should insurance
companies or states be billed for false imprisonments
by our judiciary? Why should citizen’s taxes and
insurance rates rise because of unchecked power in
the judiciary? The Thirteenth Amendment abolishes
all slavery and involuntary servitude where one is
under the control of someone and there is monetary
gain by the owner. Aren’t these “conservatorships”
and false imprisonments a form of slavery?
I was excluded from my eldest son’s high
school graduation and only prom, my youngest son’s
middle school graduation, and my only daughter’s
Sweet Sixteen and first prom, all because of these
tyrannical orders, all while being denied due process
in all courts. I will never get these moments back
again. To suggest the court has caused my children
and me “irreparable harm” is an understatement.
V. Case Law and Legal Sophistry Replacing
Constitutional Law
My husband is a brilliant sophist, a Yale Law
man, and his case law precedence and legal sophistry
is commonly replacing constitutional law in our
courtrooms, stripping fellow Americans of their:
protections from financial ruin, as was the case in his
defense of the Wilpons during the Madoff scandal;
homes, as was the case in his defense of Morgan
Stanley in the mortgaged backed securities crisis;
their children, as is the case now as he is
propagating “arrest and incarceration” for parents
who protect their children from pedophiles. This
practice is not solely his work, as he is only following
suit of the charlatans who came before him. Surely if
a mother of three can see how case law is mutilating
our constitution, and deforming the intent of our
laws, this must have come to the attention of the
Supreme Court Justices. The American people have
the right to know: which is the basis of our nation’s
laws: law firms, or the constitution?
VI. Pedophilia Hidden by the Judiciary
We The People have watched as the repugnant
practice of pedophilia percolate to, then remained at
the surface of our society. While a few individuals
have been punished as a public sacrifice for their
involvement with pedophilia, our local, State,
Federal and Appellate courts continue to uniformly
hide and protect the practice.

To date, every single court, and fifteen different
local, state, federal and federal appellate judges, including,
most recently, the Judicial Council for the Second Circuit
Court of Appeals, have hid Brian Stryker Weinstein’s
acknowledgement of his pedophilia and agreement to stay
away from children, which I include in the body below for
judicial notice. Will the Roberts Court do the same?
r
MAY, 2020 TEXT EXCHANGE WITH ELIZABETH
HARDING WEINSTEIN (IN BLUE) AND BRIAN STRYKER
WEINSTEIN (IN GREY) AFFIRMING BRIAN’S ISSUE
WITH PEDOPHILIA AND AGREEING TO STAY AWAY
FROM CHILDREN
Page 5 of7

Case 21-1127, Document 18,05/14/2021,3103881, Pages oi 13
i

-I
I

ITS.

i

B

O'
V

t*

H
j

m

10:09 <

.Ill -=? o

Brian >

<©
Yes I married you for your
goodness and strength, and
yes I want the indoctrination
of pedophilia to stop

Brian >

P

aner you umoaa everytning.
You have unloaded nothing.

I

I believe in your goodness,
Brian

I believe you married me
because you believed in mine,
but you also believed in my
strength

I

And do you acknowledge my
concern that it would be
inappropriate to have you stay
around children when you
have been indoctrinated to
pedophelia?

Is that true?

mm
Yes, that's true. I don't need to
stay at the Warniers if you're
not comfortable with that. I
can find somewhere to sleep

Brian? You can just answer
yes or no
Yes

And can you please tell me
{
what you were saying yes to
above?
m

Thank you Brian. That is brave
of you. You are showing me
(

Yes I married you for your
goodness and strength, and
yes I want the indoctrination
of pedophilia to stop
d

©) { Text Message

* c

s

your goodness.
I can get you a room at the
Sheraton Tarrytown, Can I do
that for you?

o
!

Yes

l

10:09-?

.• <5* 9Z>

<o
Brian >
I I nr 'll)- I

riKv IICI-K-

«W*/s >y.«5fc,
*v *i
n o.Kir V/P- «y/rt=j»' \vn
-ll -I U<J’l

> <'i:l:

y«fc ',Vt?vXrItagfApW■fjipAai

Brian >
y

v*i-i I'Hii sp-'uj-w vvp:
:i'i :lt;i "Hlri*,

i.‘*

' -1-'^

i>;< •!♦:.«*.••

X>i

:llm*W3''i
PKrllVji.*
l«rs.jGl<(*7!

••V;

•H» p‘>*.
\*<0r
'WSUHlf**'

...

pntd pedopheiia td $afeiy. he 4
[ground children, even when ?
; other aduhs are around, pen
C you understand my concern?
p Hove you and l want you safe.
Your safety is important to me.
But you need to show good
judgement so I can clearly see
your intent.

,«i.stn,*k- ^£ii*ny«v

.*!» WshlUite. - Pts-rU rt«it Lin fe'.>x5
Yes

W
^acknowledge again you
tWere notactingihmybest
.•interest? ■;-.■• .::; -.-"'

if3nR^7STVTSTSTr3iTlmuaKT!nViaT(?
[®] &

: .ft; ^ © © a©>. <©♦ m ®

1

Yes

Will the Roberts Court hear a case of an
outspoken advocate being tortured by the judiciary
and denied access to State, Federal and Appellate
Courts, while being deprived of my sweet children,
my home, my finances, my belongings, my mail, my
right to bear arms, my right to free speech, my right
to medical freedom, all for a year, all without due
process, simply because I am speaking out against
Covid, pedophilia, judicial tyranny, and police
corruption?
I have never been found guilty of any crime,
and never been given any opportunity to be heard on
any of the bogus charges levied against me. I have
been kidnapped. I have been poisoned. I am a multimillionaire who has been left homeless and all my
belongings and finances stolen for a year. Please do
not believe me: please examine the evidence for
yourself.
My social media accounts with thousands of
followers were deplatformed, multiple times, without
cause, and my cloud file storage was broken into and
compromised.
Judges and police, aware of the
spoliation of evidence, denied me any relief or
protections.
My first rental home in an entire year had a
suspicious “house fire” in the middle of the night,
while the fire alarms were mysteriously dismantled,
and all the doors inexplicably locked. The Defendant
Judge in this case is a firefighter. What are the
chances?
This is a case of critical import as it challenges
some fundamental issues of pervasive judicial
practice, restrictions on individual freedoms, the
judicial trafficking of our children and adults, and
denial of justice throughout our country. These
issues are at war with our Constitution. If We The
People have no recourse, we are not free, we are
under tyrannical rule.
Just like my competency, the need for writ of
certiorari is self-evident.

CONCLUSION
We are living in a time of judicial tyranny,
waging a war on our inalienable rights, a war on
our Constitution, and a war on our children. Res
ipsa loquitur.
The individual’s rights are being desecrated,
while the individual’s abilities to seek relief is
concurrently restricted.
The Supreme Court Justices of the United
States are beneficiaries of, and enforce, the
inalienable rights and liberties of the people
through the defense of the Constitution, against all
enemies domestic and foreign. When the enemy of
the Constitution is the judicial system itself, the
Supreme Court must act swiftly and surgically, as
per the duty enjoined upon the United States
Supreme Court, by oath and by law.
If no action is taken by the United States
Supreme Court to end the judicial war on our
Constitution and We The People, what option
does this Court leave We The People?
The Court should grant this petition for an
extraordinary writ of certiorari before judgment to
hear this case, end judicial tyranny, protect our
children, and defend the rights of We The People.

Respectfully submitted,

ElizabethsHarding Weinstein,
Currently homeless by
the Courts, Permanent
■Home-^Cadress:
180 River Road
Briarcliff Manor, NY
10510
Please direct all
communications to:
(646)-261-7685
lizhardingl@mac.com
Plaintiff, Pro Se
July 2. 2021

